WAIVER

Supreme Court, U.S.
FILED

SEP 1 1 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Daniel Delacruz, Sr.

19-194
v.

State Bar of California, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Sue M. Antle as the personal representative for the Estate of
Robert V. Antle
0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a arr em er.
Signature "
0/?

Date.

David M. Gilmore
Mr.
E Ms. 0 Mrs. 0 Miss
Gilmore Magness Janisse

(Type or print) Name
Firm

Address

P

.O. Box 28907

City & State
Phone

Fresno, California

(559) 448-9800

Zip
Email

93729-8907

dgilmore@gmlegal.net

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIO
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIE rligokt--NeD
'OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUI E

SEP 17 2019

CC: &e ouutr,LcAnk.$)k—.)

OFFICE OF THE CLERK
SUPREME COURT U.S.

PROOF OF SERVICE
Daniel Delacruz, Sr. v The State Bar et al.
CV 14-05336 HRL
STATE OF CALIFORNIA, COUNTY OF FRESNO
At the time of service, I was over 18 years of age and not a party to
this action. I am employed in the County of Fresno, State of California.
My business address is Post Office Box 28907, Fresno, CA 93729-8907.
On September 11, 2019, I served true copies of the following
document(s) described as WAIVER on the interested parties in this action
as follows:
SEE ATTACHED SERVICE LIST
BY MAIL: I enclosed the document(s) in a sealed envelope or
package addressed to the persons at the addresses listed in the Service List
and placed the envelope for collection and mailing, following our ordinary
business practices. I am readily familiar with Gilmore Magness Janisse's
practice for collecting and processing correspondence for mailing. On the
same day that the correspondence is placed for collection and mailing, it is
deposited in the ordinary course of business with the United States Postal
Service, in a sealed envelope with postage fully prepaid.
I declare under penalty of perjury under the laws of the State of
California that the foregoing is true and correct.
Executed on September 11, 2019, Fresno, California.

isa Renwick

